Nos. 19-1155 and 19-1156

In the Supreme Court of the United States
ROBERT M. WILKINSON, ACTING ATTORNEY GENERAL,
PETITIONER

v.
MING DAI
ROBERT M. WILKINSON, ACTING ATTORNEY GENERAL,
PETITIONER

v.
CESAR ALCARAZ-ENRIQUEZ
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

REPLY BRIEF FOR THE PETITIONER
ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
BRIAN M. BOYNTON
Acting Assistant Attorney
General
EDWIN S. KNEEDLER
Deputy Solicitor General
COLLEEN E. ROH SINZDAK
Assistant to the Solicitor
General
DONALD E. KEENER
JOHN W. BLAKELEY
DAWN S. CONRAD
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

TABLE OF CONTENTS

Page
I. A court of appeals may not presume that testimony
is credible and true based solely on the absence of
an explicit adverse credibility determination ................. 5
A. A court may not presume that an applicant’s
testimony is true based on the absence of an
express adverse credibility finding ......................... 5
B. The court of appeals improperly presumed that
respondents’ testimony was true ............................. 6
C. A court may not presume that an applicant’s
testimony is credible merely because the
Board failed to make an express adverse
credibility finding .................................................... 14
II. At minimum, the Dai court erred in refusing to
remand the case to the agency for further
consideration .................................................................... 18
TABLE OF AUTHORITIES

Cases:
Allentown Mack Sales & Serv., Inc. v.
NLRB, 522 U.S. 359 (1998) .............................................. 10
Banks v. Chicago Grain Trimmers Assn.,
390 U.S. 459 (1968)............................................................ 11
Encino Motorcars, LLC v. Navarro,
136 S. Ct. 2117 (2016)........................................................ 14
Ernesto Navas v. INS, 217 F.3d 646 (9th Cir. 2000) ......... 7
FCC v. Pottsville Broad. Co., 309 U.S. 134 (1940) ............ 18
Florida Power & Light Co. v. Lorion,
470 U.S. 729 (1985).......................................................18, 19
Gonzales v. Thomas, 547 U.S. 183 (2006).......................... 19
Haider v. Holder, 595 F.3d 276 (6th Cir. 2010) ................ 18

(I)

II

Cases—Continued:

Page

Hu v. Holder, 652 F.3d 1011 (9th Cir. 2011) ....................... 7
INS v. Ventura, 537 U.S. 12 (2002) ...............................18, 22
Kalubi v. Ashcroft, 364 F.3d 1134 (9th Cir. 2004) .............. 2
Michigan v. Environmental Prot. Agency,
576 U.S. 743 (2015)............................................................ 15
Singh v. Gonzales, 495 F.3d 553 (8th Cir. 2007) ..........13, 14
Vermont Yankee Nuclear Power Corp. v.
Natural Res. Def. Council, Inc., 435 U.S. 519 (1978) ... 17

Statutes and regulation:
Administrative Procedure Act, 5 U.S.C. 701 et seq.......... 14
Immigration and Nationality Act, 8 U.S.C. 1101
et seq. .................................................................................... 1
8 U.S.C. 1158(b)(1)(B) ................................................... 21
8 U.S.C. 1158(b)(1)(B)(ii) .......................................5, 6, 14
8 U.S.C. 1158(b)(1)(B)(ii)-(iii) ......................................... 5
8 U.S.C. 1158(b)(1)(B)(iii) .............................. 3, 15, 16, 17
8 U.S.C. 1229a(c)(4)(B) ................................................... 5
8 U.S.C. 1231(b)(3)(C) ..................................................... 5
8 U.S.C. 1252(b)(4)(B) .............................. 2, 10, 12, 16, 17
8 C.F.R. 1208.13(b)(1)(ii) ..................................................... 22

Miscellaneous:
The American Heritage Dictionary of the English
Language (3d ed. 1996) ...................................................... 6

In the Supreme Court of the United States
No. 19-1155
ROBERT M. WILKINSON, ACTING ATTORNEY GENERAL,
PETITIONER

v.
MING DAI
No. 19-1156
ROBERT M. WILKINSON, ACTING ATTORNEY GENERAL,
PETITIONER

v.
CESAR ALCARAZ-ENRIQUEZ
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

REPLY BRIEF FOR THE PETITIONER

Under a straightforward application of the Immigration and Nationality Act (INA), 8 U.S.C. 1101 et seq., the
Ninth Circuit’s decisions in these cases should be reversed. The immigration judges (IJs) who heard respondents’ testimony concluded that it was insufficient
to satisfy respondents’ burden of proof. The Board of
Immigration Appeals (Board) affirmed on the same basis. The question for the court of appeals therefore
should have been simply whether a “reasonable adjudi-

(1)

2
cator” would have been “compelled” to reach the opposite conclusion. 8 U.S.C. 1252(b)(4)(B). Because in both
cases the agency relied on multiple aspects of the evidence that rendered the alien’s testimony insufficient to
meet his burden, the agency’s determinations should
have been upheld.
Instead, the court of appeals reversed the agency’s
decisions. In Alcaraz, the court relied on circuit precedent under which an alien’s “[t]estimony must be accepted as true in the absence of an explicit adverse credibility finding.” Alcaraz Pet. App. 3a (quoting Kalubi v.
Ashcroft, 364 F.3d 1134, 1137 (9th Cir. 2004)). And in
Dai, the court cited Kalubi and other cases that had endorsed a presumption of truth, and the panel applied a
presumption of truth in substance. See Dai Pet. App.
11a, 13a; Gov’t Br. 26. Respondents now concede that
the circuit precedent requiring a presumption of truth
is wrong, but argue that the decisions below rested on
alternative rationales. That contention is incorrect, and
the alternative rationales respondents propose are no
more compatible with the INA than the Ninth Circuit
rule they are intended to replace.
Respondent Dai contends (Br. 39) that, rather than
presuming Dai’s testimony was true, the court of appeals merely disregarded evidence that Dai lied on the
ground that such evidence is irrelevant in the absence
of an adverse credibility finding. As Judge Callahan
stated in her dissent from denial of rehearing en banc
below, however, that approach “ignores the common
sense reality that triers of fact may—and frequently
do—decide factual issues against a party without affirmatively finding that party not credible.” Dai Pet.
App. 136a. Where the IJ and the Board offer a reasonable explanation for why testimony is unpersuasive, the

3
INA does not authorize a court to set that conclusion
aside merely because the evidence underlying the persuasiveness determination could have supported the
more drastic (but ultimately unnecessary) determination that the testimony was not even credible—i.e., not
even capable of being believed.
Respondent Alcaraz, for his part, relies (Br. 18-19,
43-44) on the unsupported proposition that the court of
appeals rejected the agency’s determination in his case
because the Board provided an inadequate justification
for its refusal to accept his testimony as true. Even if
the court’s decision could be understood to fault the
agency for failing to provide a sufficient explanation for
its decision to credit a probation report over Alcaraz’s
self-serving testimony, nothing in the INA authorizes
that level of opinion-writing superintendence by the
courts of appeals.
Both respondents also defend the proposition that,
while a reviewing court need not apply a presumption of
truth in the absence of an express adverse credibility
finding, it must at least apply a presumption of credibility. That proposition, too, is mistaken. The Board must
apply a rebuttable presumption of credibility when the
IJ has not made an “explicit[]” “adverse credibility determination.” 8 U.S.C. 1158(b)(1)(B)(iii). But nothing
in the statute requires the Board to make an express
finding when it determines that the presumption has
been overcome, and nothing requires a court to apply a
presumption of credibility in the absence of such an express finding by the Board. Accordingly, a court is free
to conclude that the Board did not find the alien’s testimony credible, even where the Board’s decision does
not contain an explicit adverse credibility determination. That proposition, however, is largely irrelevant to

4
these cases because the agency rejected Dai’s testimony on the ground that it was not sufficiently persuasive, and it found that Alcaraz’s testimony was outweighed by the probation report, as well as the nature
of his conviction, the elements of his crime, and the sentence imposed. The court of appeals therefore had no
need to consider credibility at all.
Because respondents have identified no basis on
which the court of appeals should have set aside the
Board’s decisions in either of these cases, there is no
need for this Court to reach the second question presented in Dai, concerning the court of appeals’ additional error in declaring Dai affirmatively eligible for
asylum rather than remanding to the agency. If the
Court does reach that question, however, Dai offers no
sound defense of the court of appeals’ approach. The
Board understood itself to be free to affirm the IJ’s decision without expressly addressing whether the presumption of credibility had been overcome. The government believes the Board was correct, but if this
Court were to hold otherwise, the Board should be given
the opportunity to address the implications of such a
holding in the first instance. The Board should also be
given a chance to address any change in country conditions that might have occurred in the nearly six years
since it issued its decision.

5
I. A COURT OF APPEALS MAY NOT PRESUME THAT
TESTIMONY IS CREDIBLE AND TRUE BASED
SOLELY ON THE ABSENCE OF AN EXPLICIT
ADVERSE CREDIBILITY DETERMINATION
A. A Court May Not Presume That An Applicant’s
Testimony Is True Based On The Absence Of An Express
Adverse Credibility Finding

When an alien in removal proceedings asserts that
he is eligible for asylum or withholding of removal, the
INA places the burden of proof on the alien to establish
the facts necessary to demonstrate his eligibility.
8 U.S.C. 1158(b)(1)(B)(ii) (asylum); see 8 U.S.C.
1229a(c)(4)(B), 1231(b)(3)(C) (providing similarly for
withholding of removal). The alien’s testimony “may be
sufficient to sustain [that] burden,” but only if the IJ is
“satisfie[d]” that the testimony is, among other things,
“credible.” 8 U.S.C. 1158(b)(1)(B)(ii) (asylum); see
8 U.S.C. 1229a(c)(4)(B). Accordingly, if an IJ makes
an “adverse credibility determination” with respect
to an alien’s testimony, that testimony cannot be used
to satisfy the alien’s burden of proof. 8 U.S.C.
1158(b)(1)(B)(ii)-(iii).
At the same time, the absence of an “adverse credibility determination” does not mean that the alien has
necessarily satisfied his burden, even where his testimony contains “specific facts sufficient to demonstrate”
asylum eligibility. 8 U.S.C. 1158(b)(1)(B)(ii)-(iii). Rather, the INA provides that even where testimony is
“credible,” it must also be “persuasive”—and even then
it only “may be sufficient to sustain the applicant’s burden.” 8 U.S.C. 1158(b)(1)(B)(ii) (emphasis added). The
INA further specifies that, in assessing whether an alien’s testimony provides a basis to grant relief, the IJ

6
may “weigh the credible testimony along with other evidence of record” and may require the alien to provide
evidence to corroborate “otherwise credible testimony.”
Ibid. By recognizing that “credible testimony” may not
be “persuasive,” and by specifying methods for testing
the veracity of “otherwise credible testimony,” the statute makes clear that “credible” does not mean “true.”
Instead, it means that the testimony is “[c]apable of being believed.” The American Heritage Dictionary of
the English Language 438 (3d ed. 1996). As a result, an
IJ may decline to make an “adverse credibility determination” and yet ultimately conclude that the alien’s testimony is unpersuasive or false.
Respondents readily concede that “it is possible to
deem testimony credible but nonetheless deny its veracity.” Alcaraz Br. 37; see Dai Br. 48 (observing that
testimony deemed “credible” is “of course, not necessarily true”) (emphasis omitted). While that concession
is sensible in light of the plain text of the statute, it is
fatal to respondents’ defense of the decisions below.
The Ninth Circuit in Alcaraz expressly relied on a presumption of truth, and in Dai it applied the same flawed
presumption in substance. The judgments below should
therefore be reversed.
B. The Court Of Appeals Improperly Presumed That
Respondents’ Testimony Was True

Respondents assert that, although courts may not
apply a presumption of truth based on the absence of an
adverse credibility determination, reversal is not required because the judgments in their cases did not turn
on any such presumption. Both respondents are mistaken.
1. In Dai’s case, the Ninth Circuit explicitly predicated its decision on circuit precedent that had applied

7
a presumption of truth, although the panel described
those cases as applying a presumption of credibility.
Dai Pet. App. 13a-14a. Dai acknowledges that the cited
decisions applied a presumption of truth, but suggests
that “citing a case does not incorporate every statement
within it.” Dai Br. 38. That can be so in the abstract,
but here the court cited to a specific footnote in Hu v.
Holder, 652 F.3d 1011 (9th Cir. 2011), and stated that
“Hu controls here.” Dai Pet. App. 14a (citing Hu, 652
F.3d at 1013 n.1). The relevant footnote explains that,
“[b]ecause the [Board] did not make an explicit adverse
credibility finding, we assume that the facts in Hu’s testimony and asylum application are true.” Hu, 652 F.3d
at 1013 n.1 (citing Ernesto Navas v. INS, 217 F.3d 646,
652 n.3 (9th Cir. 2000)).
Dai nonetheless contends that the court below eschewed the presumption of truth in its own analysis because it described Dai’s testimony “as credible, not
true,” Dai Br. 37. The decision, however, makes clear
that the court treated those terms as essentially synonyms, and Dai’s attempt to defend the court’s decision
on other grounds cannot withstand scrutiny.
a. From the outset, the court of appeals treated
Dai’s testimony as not merely credible, but true. Thus,
in setting out the background of the case, the court explained that it was drawing its “factual summary * * *
primarily from Dai’s testimony” because “neither the IJ
nor the BIA made an adverse credibility finding.” Dai
Pet. App. 2a n.1. The court then relied on the “fact[s]”

8
drawn from Dai’s testimony to reject the Board’s determination that Dai’s testimony was not persuasive. Ibid.;
see id. at 20a-24a. 1
The court presumed, for example, that Dai was
truthful in testifying to a fear that he would be persecuted upon his return to China, and therefore found it
unreasonable for the Board to have rejected the persuasiveness of Dai’s testimony based on the fact that Dai
cited economic opportunities when the asylum officer
asked for the “real story” behind his travel to the
United States. Dai Pet. App. 23a, 44a. The court reasoned that the Board should have recognized that it was
permissible for Dai to seek refuge in the United States
because of both persecution and economic opportunities, id. at 23a-24a, ignoring that Dai’s statement with
respect to the “real story” undermined the veracity—
and therefore the persuasiveness—of his assertion that
he sought to remain in the United States because of persecution.

Dai argues (Br. 1, 14-15) that his testimony is corroborated by
hospital records, but he never advanced that argument—or even
referenced the hospital records—in his brief ing before the Board or
the court of appeals. Instead, he relied exclusively on his testimony
to establish the facts. Dai Administrative Record (A.R.) 9; Dai C.A.
Br. 4-7. That may be because, during the removal hearing, the government questioned Dai about the hospital records and determined
that Dai did not have a letter from the hospital or other evidence
authenticating the records. A.R. 138-139. Moreover, Dai explained
that the documents were “booklets” that a patient is given at the
hospital and that the patient then gives to the doctor. Ibid. The
government asked what “would stop someone from hand-writing
something in a booklet, or typing something in a booklet, on their
own.” A.R. 139. Dai’s only response was that he did not “know how
* * * they do that” but that he “personally [had] never done that.”
Ibid.
1

9
The same approach led the court to reject the
Board’s reliance on the fact that Dai’s family voluntarily
returned to China. Based on Dai’s testimony regarding
his family’s alleged persecution, the court concluded
that the experiences of Dai and his wife were “not so
similar as to” foreclose the possibility that she could
safely return and he could not. Dai Pet. App. 21a. By
simply accepting the truth of Dai’s account, the court
ignored that his family’s voluntary return to China
without him undermined his claim regarding the persecution both he and his wife had experienced.
Perhaps the clearest demonstration of the court’s
conflation of the terms “credible” and “true” comes
from its rejection of the Board’s reliance on evidence
that Dai was “not being truthful” in his account of his
family’s travel. Dai Pet. App. 22a. The court determined that it was inappropriate for the Board to consider Dai’s lack of truthfulness on this issue because the
evidence was relevant only to Dai’s credibility, and
“[c]redibility concerns that do not justify an adverse
credibility finding cannot be smuggled into the persuasiveness inquiry.” Id. at 22a-23a. The court thus elevated the absence of an express adverse credibility determination by the agency into a requirement that Dai’s
testimony be deemed true.
b. Dai asserts (Br. 39) that, in refusing to consider
evidence regarding the truthfulness of his testimony absent an express adverse credibility finding, the court
was not imposing a presumption of truth but instead
recognizing that some evidence “is only relevant to
credibility.” He appears to argue that, where evidence
casts doubt on an alien’s “overall” truthfulness, Dai Br.
44, the agency must either make an adverse credibility

10
determination or ignore that evidence altogether. That
argument is doubly flawed.
To begin, it is not clear this argument helps Dai. In
this case, the agency’s persuasiveness analysis relied on
evidence that undermined particular pieces of Dai’s testimony. The fact that he told an asylum officer he
wished to live in the United States for economic reasons
undermined the persuasiveness of his testimony that he
wanted to remain to avoid persecution; the fact that his
wife and child voluntarily returned to China without Dai
undermined the persuasiveness of his testimony about
the persecution his family allegedly experienced there;
and the fact that Dai lied about his family’s travel further undermined his account of that persecution by suggesting that Dai himself recognized that his family’s
voluntary return to China was inconsistent with the persecution he had described.
More broadly, a determination of credibility means
only that the IJ or Board has found that the alien’s testimony is capable of being believed, not that it is persuasive or true. Accordingly, nothing in the INA precludes the agency from considering evidence undermining an alien’s overall truthfulness as part of its persuasiveness analysis, and nothing requires a reviewing
court to dismiss such evidence merely because the
agency could have used it to support an adverse credibility determination. Rather, the INA directs that “administrative findings of fact are conclusive unless any
reasonable adjudicator would be compelled to conclude
to the contrary.” 8 U.S.C. 1252(b)(4)(B). That statutory
substantial-evidence standard requires the court to consider whether the agency’s persuasiveness finding “is
supported by substantial evidence on the record as a
whole.” Allentown Mack Sales & Serv., Inc. v. NLRB,

11
522 U.S. 359, 366 (1998) (emphasis added). A court is
therefore precluded from rejecting record evidence
that supports the agency’s persuasiveness finding on
the basis that it is also relevant to the alien’s credibility.
Further, the “common sense reality” is that “triers
of fact may—and frequently do—decide factual issues
against a party without affirmatively finding that party
not credible.” Dai Pet. App. 136a (Callahan, J., dissenting from denial of rehearing en banc). Nor is it surprising that IJs and the Board often rest their decisions on
a determination that the alien’s testimony is not persuasive as to essential facts (i.e., that the agency does not
find those facts to be true) rather than a determination
that the testimony is not credible (i.e., that it was not
even capable of being believed). As Dai himself recognizes (Br. 30), an adverse credibility determination is
more “drastic,” and the agency may be reluctant or find
it unnecessary to make such determinations in circumstances where a dispositive persuasiveness finding is
sufficient to resolve the particular case. Alternatively,
the IJ or Board may accept the truth of some aspects of
an alien’s testimony but not others, and therefore be unwilling to make a global adverse credibility determination. See Banks v. Chicago Grain Trimmers Assn., 390
U.S. 459, 467 (1968) (recognizing that an agency adjudicator may “credit part of [a] witness’ testimony without
accepting it all”). But in no event does the agency’s decision to stop short of an adverse credibility determination limit its ability to consider evidence with respect to
persuasiveness.
2. Alcaraz similarly fails in his attempt to demonstrate that the court of appeals did not rely on a presumption of truth in his case. Indeed, he faces a particularly uphill battle because the court declared that, in

12
the absence of an adverse credibility finding, “the court
must assume that the petitioner’s factual contentions
are true.” Alcaraz Pet. App. 2a (brackets and citation
omitted). Alcaraz acknowledges (Br. 46) that the court
should not have invoked such a rule, but he maintains
that the mistake was immaterial because the court did
not fault the agency for failing to presume that Alcaraz’s testimony was true, but rather faulted the
agency for crediting the probation report instead of Alcaraz’s testimony “without adequate (or any) justification.” There are multiple problems with this argument.
First, Alcaraz mischaracterizes the court of appeals’
decision. The relevant portion of the decision simply articulates the presumption of truth and then states that
the agency “erred” when it credited the probation report “over Alcaraz’s testimony without making an explicit adverse credibility finding.” Alcaraz Pet. App. 3a.
The court did not suggest that the failure to accept Alcaraz’s testimony as true might have been excused if the
agency had provided a more fulsome justification.
Second, Alcaraz points to nothing in the INA that authorizes a court of appeals to set aside factual findings
based on the court’s view that the agency failed to offer
an adequate explanation as to why it chose to credit one
source over another. Again, the INA provides that the
court must treat an agency’s fact-finding as “conclusive” so long as the factual determination is one that a
“reasonable adjudicator” could make based on the administrative record. 8 U.S.C. 1252(b)(4)(B).
Third, Alcaraz seeks to rely on lower court decisions
that have applied a “ ‘specific, cogent reasons’ ” requirement in reviewing factual findings made by an IJ or the
Board in removal proceedings, despite the lack of statutory authority for such a requirement. Alcaraz Br. 27

13
(quoting Singh v. Gonzales, 495 F.3d 553, 557 (8th Cir.
2007) (Colloton, J.)). But the courts that have articulated this standard have explained that it is “ ‘exceedingly narrow,’ ” requiring no more than that the
agency’s findings have sufficient “ ‘clarity as to be understandable’ ” and be “convincing enough that a reasonable adjudicator would not be compelled to reach the
contrary conclusion.” Singh, 495 F.3d at 557-558 (citations omitted).
Even if it is permissible for a court to impose a “specific, cogent reasons” requirement, the administrative
decisions in Alcaraz’s case would readily satisfy it. The
IJ’s oral opinion described the probation report’s violent account of Alcaraz’s prior conviction for domestic
violence, as well as Alcaraz’s competing testimony that
he was convicted because he “hit [his girlfriend] in the
face” after she hit their daughter. Alcaraz Pet. App.
12a-14a. The IJ then explained that it found that Alcaraz was convicted of “a particularly serious crime” because the “nature of the conviction, domestic violence,
is serious,” and because the “elements of the crime”—
including “willful infliction” and “corporal injury [that]
results in a traumatic condition”—are also “in and of
themselves” “serious.” Id. at 14a-15a. The IJ further
observed that the sentencing court found the crime “serious” by sentencing Alcaraz to “two years.” And the IJ
explained that the probation report detailed, among
other things, “previous threats, substance abuse” and
“respondent’s minimization of his actions.” Ibid. The
Board, in turn, found that the IJ properly “considered
all evidence of record,” “including weighing and comparing [Alcaraz’s] testimony at the hearing and the probation officer’s report.” Id. at 8a. The Board concluded

14
that “respondent did not satisfy his burden of establishing that his conviction for corporal injury * * * was not
for a particularly serious crime.” Ibid.
The Board’s and IJ’s findings are plainly of sufficient
“clarity as to be understandable.” Singh, 495 F.3d at
557-558 (citation omitted). The IJ relied on multiple aspects of the evidence establishing that Alcaraz’s crime
was particularly serious, and—as the Board found—it
properly “weigh[ed]” Alcaraz’s testimony against the
probation report. Alcaraz Pet. App. 8a. That analysis
readily comports with the INA, which provides that the
agency “may weigh the credible testimony along with
other evidence of record.” 8 U.S.C. 1158(b)(1)(B)(ii).
Finally, to the extent that Alcaraz’s repeated references to a requirement that the agency’s analysis be
“clear” or “[c]learly [e]xpressed” are intended to suggest a more demanding standard, he is incorrect. Alcaraz Br. 18 (emphasis omitted); see, e.g., id. at 19, 27,
35. An agency satisfies the reasoned-decisionmaking
requirement of the Administrative Procedure Act,
5 U.S.C. 701 et seq., so long as “the agency’s explanation
is clear enough that its ‘path may reasonably be discerned.’ ” Encino Motorcars, LLC v. Navarro, 136
S. Ct. 2117, 2125 (2016) (citation omitted).
C. A Court May Not Presume That An Applicant’s
Testimony Is Credible Merely Because The Board
Failed To Make An Express Adverse Credibility Finding

Both respondents also assert that, while a court of
appeals need not presume that testimony is true in the
absence of an express adverse credibility determination, it must at least presume the testimony is credible.
That argument is both incorrect and largely irrelevant
to this case.

15
1. Respondents start from two uncontroversial
premises. First, they observe that, under the INA, “if
no adverse credibility determination is explicitly made”
by the IJ, the “applicant or witness shall have a rebuttable presumption of credibility” in proceedings before
the Board. 8 U.S.C. 1158(b)(1)(B)(iii); see Dai Br. 29;
Alcaraz Br. 25-26. Second, they note that, under basic
principles of administrative law, a court may “uphold an
agency’s decision ‘only on the grounds that the agency
invoked when it took the action.’ ” Alcaraz Br. 24 (quoting Michigan v. Environmental Prot. Agency, 576 U.S.
743, 758 (2015)). Putting these two propositions together, they reason that “where neither the [IJ] nor the
[Board] explicitly found that an applicant testified noncredibly, a reviewing court must presume that the applicant’s testimony was credible.” Ibid.; see Dai Br. 33.
The difficulty, however, is that nothing in the INA
requires the Board to make an express adverse credibility determination, and nothing requires the court to
apply a rebuttable presumption in the absence of an express adverse credibility determination from the Board.
The plain text of the statute instead provides that
“[t]here is no presumption of credibility,” except with
respect to the Board’s review of an IJ’s decision.
8 U.S.C. 1158(b)(1)(B)(iii). Accordingly, a court is free
to conclude that, while neither the IJ nor the Board
made an express adverse credibility finding, the
Board’s reasoning demonstrates that it found the presumption of credibility arising from the IJ’s omission of
an express credibility determination had been overcome. The court could then uphold the Board’s determination on the ground that the alien was not credible
without contravening the statute or the basic principle

16
that a court may uphold the agency’s determination
only on the grounds on which the agency relied. 2
For example, if Dai were somehow correct that certain evidence is relevant to credibility but somehow not
to persuasiveness, but see pp. 9-11, supra, a court might
reasonably conclude that the Board’s decision to discuss
and rely on that evidence demonstrated that the Board
had found the presumption of credibility overcome. Or
the Board could find no need to address whether the alien’s testimony was credible—i.e., capable of being
believed—and could instead conclude that the alien’s
testimony was otherwise insufficiently persuasive to
carry his burden. So long as a “reasonable adjudicator”
would not be “compelled” to reach the contrary result,
the court would be required to accept that determination. 8 U.S.C. 1252(b)(4)(B).
2. Respondents assert that the government has misread the statute because, in stating that “[t]here is no
presumption of credibility” in Section 1158(b)(1)(B)(iii),
Congress meant only that the IJ shall not apply any
presumption. Dai Br. 34-36 (citation omitted); Alcaraz
Br. 30-33. They rely principally on where the “no presumption” rule appears in the statute and the objects of
the surrounding sentences and provisions. See, e.g.,
Dai Br. 35; Alcaraz Br. 31-32. As we have explained
(Gov’t Br. 29-31), however, those considerations are insufficient to overcome the plain, broad meaning of the
phrase “[t]here is no presumption of credibility.”

Dai and Alcaraz therefore mischaracterize the government’s position when they assert that it would permit the court to decide credibility “de novo,” Dai Br. 36, or to uphold the Board based on a credibility determination the agency could have, but did not, make, Alcaraz Br. 27-28.
2

17
Moreover, even if respondents are correct that Section 1158(b)(1)(B)(iii) does not prohibit the courts of appeals from applying a presumption of credibility, it does
not affirmatively require the courts to apply one.
“[R]eviewing courts are generally not free to impose”
additional procedural requirements on an agency. Vermont Yankee Nuclear Power Corp. v. Natural Res. Def.
Council, Inc., 435 U.S. 519, 524 (1978). Applying a presumption of credibility would impermissibly force the
Board to make an explicit finding about credibility that
the statute does not require. It would also contravene
Congress’s direction to treat reasonable agency factfinding as “conclusive,” 8 U.S.C. 1252(b)(4)(B), a statutory mandate that does not turn on whether the finding
in question is explicitly articulated or instead evident
from the IJ’s and Board’s overall analysis.
3. In any event, respondents’ arguments on this
score are largely beside the point. In order to uphold
the Board’s decisions in these cases, the court of appeals
did not need to decide whether respondents were credible. The court was merely required to evaluate
whether a “reasonable adjudicator” would be “compelled” to conclude that the Board erred in finding Dai’s
testimony unpersuasive, and in determining that Alcaraz’s testimony was outweighed by other evidence in
the record. 8 U.S.C. 1252(b)(4)(B). Under a straightforward application of the statutory substantial-evidence
standard, the Board’s decisions should have been upheld. See Gov’t Br. 22-26. 3
Alcaraz suggests that the government’s position is inconsistent
with a past case in which the government “ ‘urge[d]’ ” a lower court
that it “should apply the very rule that respondents propose”—i.e.,
that a presumption of credibility applies in the courts of appeals.
3

18
II. AT MINIMUM, THE DAI COURT ERRED IN REFUSING
TO REMAND THE CASE TO THE AGENCY FOR
FURTHER CONSIDERATION

It is a basic principle of administrative law that,
when a reviewing court determines that “the record before the agency does not support the agency action,”
then “the proper course, except in rare circumstances,
is to remand to the agency for additional investigation
or explanation.” Florida Power & Light Co. v. Lorion,
470 U.S. 729, 744 (1985); see INS v. Ventura, 537 U.S.
12, 16 (2002) (per curiam); cf. FCC v. Pottsville Broad.
Co., 309 U.S. 134, 145 (1940) (“The Court of Appeals laid
bare [the Commission’s] error, and, in compelling obedience to its correction, exhausted the only power which
Congress gave it.”). By the same token, where the court
confronts a “ ‘changed circumstances’ issue” that the
agency “has not yet considered,” a court should generally remand to allow the agency to address the issue in
the first instance. Ventura, 537 U.S. at 16-17.
In Dai, the court of appeals found that the Board’s
asylum and withholding of removal determinations
were “not supported by substantial evidence,” Dai Pet.
App. 19a, and the Board has not yet had an opportunity
to address whether changed circumstances in China affect Dai’s eligibility for relief and protection, Gov’t Br.
37-38. Accordingly, even if this Court holds that the
Alcaraz Br. 36 (quoting Haider v. Holder, 595 F.3d 276, 282 & n.4
(6th Cir. 2010)) (brackets in original). There is no inconsistency: the
government argued there that the court of appeals should deny relief without regard to any question of credibility, and thus that the
most efficient path was to “assume that the applicant was credible
in order to review the actual grounds for the ruling,” rather than
remand for a credibility determination that was, in the government’s view, irrelevant. Haider, 595 F.3d at 282. The government
advocates the same approach here.

19
findings by the IJ and the Board were insufficient to
support the denial of relief and protection, the case
should be remanded to the agency. None of Dai’s arguments to the contrary is persuasive.
A. Dai first asserts (Br. 46) that the court of appeals
was not required to remand after rejecting the Board’s
determination because the agency had “already decided” the eligibility question. But under Florida Power
& Light, an invalidation of an agency’s determination
typically warrants a remand because—after detecting
an error—the reviewing court is “not generally empowered to conduct a de novo inquiry into the matter being
reviewed.” 470 U.S. at 744. The court of appeals ignored that command: It first conducted a de novo analysis of the details of Dai’s testimony to assess whether
the “harm” he described rose to the “level of persecution,” Dai Pet. App. 17a-18a, and then examined the record as a whole to assess whether anything “undermine[d] the persuasiveness” of the presumptivelycredible testimony, id. at 19a. In other words, the court
“determin[ed] the facts and decid[ed] whether the facts
as found f [e]ll within [the] statutory term[s],” tasks that
are entrusted to the agency “in the first instance.” Gonzales v. Thomas, 547 U.S. 183, 186-187 (2006) (per curiam).
Dai also suggests (Br. 47-48) that remand to the
agency is not required because the agency’s eligibility
determination was primarily based on Dai’s credibility
and “the agency has already adjudicated credibility in
Dai’s favor.” In fact, neither the IJ nor the Board made
any explicit findings regarding credibility, and—before
the Ninth Circuit’s decision—the import of that omission was unclear even to the parties. In their court of

20
appeals briefing, neither Dai nor the government focused their arguments on the potential applicability of
a presumption of credibility. See Dai Pet. App. 72a-73a
(Trott, J., dissenting), 126a-127a & n.2 (Callahan, J.,
dissenting from denial of rehearing en banc). 4 The
court of appeals went beyond that briefing, id. at 127a,
and found that the agency’s failure to make an express
adverse credibility finding warranted the application of
a presumption of credibility, id. at 16a. If that were so,
the proper course was then to remand to permit the
Board (and if necessary the IJ on further remand) to
examine the record further in light of the court’s legal
ruling, determine whether additional explanation or evidence was necessary, or clarify whether the agency—
like the parties—had overlooked the significance of
omitting an express adverse credibility determination.

Indeed, in Dai’s notice of appeal to the Board, he stated that the
IJ had made an “adverse credibility finding” based on the “finding
that respondent’s wife had been to the United States but * * * did
not apply for asylum,” and Dai argued that the finding was erroneous. A.R. 29. In his subsequent brief before the Board, he shifted
his argument, asserting that the IJ “did not make an explicit adverse credibility finding” and that the IJ had not otherwise offered
a sufficient justification for finding that Dai had not met his burden
of proof. A.R. 13. Even then, Dai did not assert that a presumption
of credibility should apply in the absence of an express adverse determination, nor did he reference the presumption at all, citing instead to precedents regarding when the Board may overrule an IJ’s
adverse credibility determination. See A.R. 10-12. It was not until
Dai’s brief before the Ninth Circuit that he suggested, in a single
sentence without citation, that “[n]either the IJ nor the [Board]
made an adverse credibility finding, so [Dai’s] testimony regarding
his persecution in China should be treated as credible.” Dai C.A.
Br. 13.
4

21
Dai contends (Br. 48) that a remand to allow the
agency to clarify or otherwise address issues of credibility and persuasiveness would be contrary to the
“statutory presumption,” which “gives the agency one
chance to evaluate credibility.” But nothing in the INA
provides that the agency has only “one chance” to evaluate credibility, even if the reviewing court finds an error in the agency’s analysis. Such a bar would be contrary to the ordinary remand rule and the broader relationship between court and agency on judicial review.
Moreover, because the rebuttable presumption of credibility applies only to the Board, see pp. 15-17, supra, it
cannot prevent the court of appeals from remanding to
permit the Board to clarify or expand upon its credibility analysis. Nor does the mandate to apply a rebuttable presumption foreclose the Board’s ability to remand
to the IJ where—for example—it is unclear whether the
IJ made an adverse finding. Dai suggests (Br. 48) that
a rule prohibiting a remand would make sense because
credibility determinations are “uniquely dependent on
observing the witness.” But that is immaterial to the
extent the agency merely clarifies its prior determination, and the relevance of witness observations does not
preclude the agency even from altering its credibility
finding or examining additional evidence.
B. Dai further contends (Br. 49) that the potential
change in country conditions does not warrant a remand
because the government did not raise the issue until its
en banc petition. But the government filed its court of
appeals brief in 2015, and the changes in China’s familyplanning policies relevant to any determination of eligibility did not occur until 2016. See Gov’t Br. 38. The
petition for rehearing, which was filed in 2018, was
therefore the government’s first opportunity to raise

22
the changed conditions. Further, the government generally has no reason to put forward evidence regarding
country conditions where the IJ determines that the alien has not met his burden to establish his allegations of
persecution. See 8 C.F.R. 1208.13(b)(1)(ii) (the government has the burden of establishing a change in country
conditions “[i]n cases in which an applicant has demonstrated past persecution”).
Dai also errs in asserting (Br. 49) that “any change
in country conditions after the agency adjudication” is
“irrelevant.” Ventura established the contrary when it
directed the court of appeals to remand a case to the
agency so that the agency could, among other things,
consider new evidence of changed country conditions.
537 U.S. at 16-18. Dai dismisses Ventura, asserting (Br.
50) that it was only permissible for the agency to consider new evidence in that case because a remand was
otherwise necessary. But a remand is otherwise required in this case too, see pp. 19-21, supra. Even if it
were not, Dai offers no plausible reason why he should
be definitively treated as eligible for asylum and entitled to withholding of removal where the agency has not
even had an opportunity to decide whether such relief
and protection would be appropriate in light of current
country conditions.

23
* * * * *
For the foregoing reasons and those stated in our
opening brief, the judgments of the court of appeals
should be reversed.
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General
BRIAN M. BOYNTON
Acting Assistant Attorney
General
EDWIN S. KNEEDLER
Deputy Solicitor General
COLLEEN E. ROH SINZDAK
Assistant to the Solicitor
General
DONALD E. KEENER
JOHN W. BLAKELEY
DAWN S. CONRAD
Attorneys

FEBRUARY 2021

